                       Audit of Capital Planning and
                         Investment Management




                                   FINAL AUDIT REPORT
                                     ED-OIG/A07-C0033
                                      September 2003




Our mission is to promote the efficiency,               U.S. Department of Education
effectiveness, and integrity of the                       Office of Inspector General
Department’s programs and operations.                    Kansas City, Missouri Office
                                        NOTICE
            Statements that managerial practices need improvements, as well as other
                         conclusions and recommendations in this report
          represent the opinions of the Office of Inspector General. Determinations of
corrective action to be taken will be made by the appropriate Department of Education officials.

         In accordance with Freedom of Information Act (5 U.S. C. § 552) reports
                  issued by the Office of Inspector General are available to
   members of the press and general public to the extent information contained therein is not
                              subject to exemptions in the Act.
      Audit of Capital Planning and Investment Management


                            Table of Contents


Executive Summary ………………………………………………………………………………1

Audit Results ……………………………………………………………………………...…..…..3

     Finding 1 - The Department Has Limited Processes to Ensure Investments
                  Are Consistent With Its Target Architecture……………………….….…....5

     Finding 2 - The Department Has Not Implemented Necessary Processes to
                  Ensure Project-level Control and Selection ………………………………...7

     Finding 3 - The Department Lacks an Investment Management Practice to
                  Continually Assess Proposed and Ongoing Projects …………….………..11

Background ……………………………………………………………………………………...13

Objectives, Scope, and Methodology …………………………………………………………...14

Statement on Management Controls …………………………………………………………….16




ED-OIG/AO7-C0033
          Audit of Capital Planning and Investment Management


                                       Executive Summary


We reviewed the Department of Education’s (Department) information technology (IT) capital
planning and investment review process. The objective of our review was to assess the status of
the Department’s compliance with the Clinger-Cohen Act1 requirements for capital planning and
investment management. Specifically, we determined whether the Department’s investment
review process ensured that 1) IT investment decisions were consistent with the enterprise
architecture currently under development; 2) costs and benefits of each investment were fully
considered in determining which projects to fund; and 3) costs and benefits of all IT investments
were adequately tracked and considered in determining the mix of projects funded for the
Department’s overall investment portfolio.

The General Accounting Office’s (GAO) Information Technology Investment Management
(ITIM) maturity framework2 provides guidance to agencies in implementing the Clinger Cohen
Act’s requirements for capital planning and investment management. ITIM identifies critical
processes for successful IT investment using a framework of five stages of increasing maturity.3
We found that the Department is making progress in developing mature investment management
capabilities. Specifically, we found that the Department was at stage two – defined as building
the investment foundation, but is also performing core elements related to stage three – defined
as developing a complete investment portfolio.

Although the Department is making progress in developing important management capabilities,
it still has considerable work ahead to fully implement mature and effective processes. We
found that the Department did not have adequate investment management processes to ensure
that 1) IT investment decisions were consistent with the enterprise architecture currently under
development; 2) decision-makers had complete life-cycle information on cost, benefits, schedule,
and risk (CBSR) to fully consider in determining which projects to fund; and 3) CBSR for all IT


1
  Previously referred to as the Information Technology Management Reform Act of 1996, Division E of Public Law
104-106, 110 Stat. 679 (1996).
2
  Information Technology Investment Management: A Framework for Assessing and Improving Process Maturity,
Exposure Draft (GAO/AIMD-10.1.23), May 2000.
3
  GAO defined the five stages of maturity in the process of developing successful IT investment management
capabilities: Stage 1 – creating investment awareness; Stage 2 – building the investment foundation; Stage 3 –
developing a complete investment portfolio; Stage 4 – improving the investment process; and Stage 5 – leveraging
IT for strategic outcomes (see pages 4-5 for a more complete description of what each stage entails).

ED-OIG/AO7-C0033                                                                                        Page 1
investments were adequately tracked and considered in determining the mix of projects funded
for the Department’s overall investment portfolio.

We reported, in September 2002, that the Department had not completed a target enterprise
architecture (EA).4 Without a completed target architecture the Department’s IT goals may not
be explicitly clear to decision-makers and the Department may not have the necessary
information crucial to evaluating IT investments. We found that each of the 47 business cases
we reviewed included an EA compatibility score with no explanation of how the score was
calculated. None of the business cases included specific information related to the proposals
compatibility with the target enterprise architecture. In May 2003, the Department’s Enterprise
Architecture Working Group (EAWG) began analyzing all business cases before the Investment
Review Board (IRB) decides which investments to fund. Given its role, the EAWG is in the best
position within the Department to ensure compliance with the enterprise architecture.

In accordance with GAO’s ITIM framework, the Department has categorized investment
proposals and established basic characteristics (selection criteria) for evaluating new IT
proposals. In addition, the Department is using the established criteria in evaluating and
selecting IT investments. However, the Department does not always ensure that the IT proposals
have the most up to date and complete life-cycle cost, benefit, schedule, and risk (CBSR)
information available; and use that information in evaluating competing investments and
deciding on which investments to fund both within and between the defined categories. In
addition, the Department has not implemented processes associated with managing investments
as a complete portfolio. As a result, the Department’s IRB may not be able to adequately assess
the relative merits of investment proposals and make trade-offs among competing options.

The Department generally concurred with our findings and recommendations and stated that
improvements had already been made and incorporated in its most current IT Investment
Management (ITIM) process. In addition, the Department’s response indicated that it had
already implemented many of the audit’s recommendations, but acknowledged that there was
still an opportunity for improvement by ensuring the practices are consistently applied. We have
incorporated their comments, where appropriate, and provided the Department’s full response as
an attachment to this report.




4
    Audit of Enterprise Architecture, Final Audit Report, dated September 30, 2002 (ED-OIG/A07-C0001).

ED-OIG/AO7-C0033                                                                                         Page 2
         Audit of Capital Planning and Investment Management


                                          Audit Results


Developing an effective investment management capability is a challenging and necessary
process to ensure that information technology investments are selected, controlled, and evaluated
in a cost-effective and efficient manner, within the context of an overall information technology
strategy. We assessed the status of the Department’s compliance with the Clinger-Cohen Act
requirements for capital planning and investment management. Specifically, we determined
whether the Department’s investment review process ensured that 1) information technology
(IT) investment decisions were consistent with the enterprise architecture currently under
development; 2) costs and benefits of each investment were fully considered in determining
which projects to fund; and 3) costs and benefits of all IT investments were adequately tracked
and considered in determining the mix of projects funded for the Department’s overall
investment portfolio.

The Department has made progress in taking specific actions to lay the groundwork for its
investment management. In our review of the business cases, we have analyzed the information
presented to the IRB in these meetings and found that the information provided and the process
is improving after each meeting. However, critical elements need to be completed in order for
the Department, including Federal Student Aid (FSA), to have mature investment management
capabilities in place for acquiring and using systems across the Department in a cost-effective
and efficient manner.

In May 2000, GAO issued an Information Technology Investment Management (ITIM) maturity
framework,5 which identifies critical processes for successful IT investment and organizes these
processes into a framework of increasingly mature stages. ITIM supports the fundamental
requirements of the Clinger-Cohen Act, which calls for IT investment and capital planning
processes and IT performance measurement. ITIM is intended to provide a tool for
implementing these processes incrementally and effectively; and has been favorably reviewed by
Federal Chief Information Officers (CIOs) and members of GAO's advisory council on IT
management.


5
 Information Technology Investment Management: A Framework for Assessing and Improving Process Maturity,
Exposure Draft (GAO/AIMD-10.1.23), May 2000.


ED-OIG/AO7-C0033                                                                                  Page 3
ITIM is a hierarchical model comprising five different maturity stages. Each stage builds upon
the lower stages and represents a step toward achieving both stable and effective IT investment
management processes. The framework indicates that with the exception of the first stage—
which reflects a general absence of investment management processes—each maturity stage is
composed of critical processes that must be implemented and institutionalized for the
organization to satisfy the requirements of that stage and be able to advance to the next stage.
These critical processes are further broken down into key practices. Key practices are the
specific tasks and conditions that must be in place for an organization to effectively implement
the necessary critical processes. The following shows the five ITIM stages and a brief
description of each stage (see Appendix I for a more complete description and what steps the
Department has completed in relation to each stage of maturity):

•     Stage 1: Creating Investment Awareness is characterized by either no plans to
      develop and use investment management techniques, or plans and actions that do not
      yet demonstrate an awareness of the value of using them.

•     Stage 2: Building the Investment Foundation focuses on foundational processes
      focusing on cost and schedule activities.

•     Stage 3: Developing a Complete Investment Portfolio is characterized by
      comprehensive investment portfolio selection and control techniques incorporating
      benefit and risk criteria linked to mission goals and strategies.

•     Stage 4: Improving the Investment Process focuses on improving the performance
      and management of the organization’s IT investment portfolio.

•     Stage 5: Leveraging IT for Strategic Outcomes is characterized by IT-enabled change
      management techniques used to strategically shape business outcomes.

In a January 2001 assessment of the Department’s IT capital planning and investment
management processes, Booz-Allen and Hamilton, Inc., an independent contractor, concluded
that the Department was between stage one and stage two. In updating the contractor’s 2001
assessment6, we found that the Department is in the process of completing the core elements
listed in stage two and has begun working on some elements listed in stage three of GAO’s ITIM
maturity framework. The Department has made progress in taking specific actions to lay the
groundwork for mature investment management capabilities, but it is lacking some basic
building blocks as described in the following sections. The Department has not



6
    Our update of the 2001 assessment was limited to the scope of our review – see Appendix I.

ED-OIG/AO7-C0033                                                                                 Page 4
•     Completed its development of a functional enterprise architecture (Stage 2);

•     Implemented processes necessary to ensure project-level control and selection, using up to
      date and complete life-cycle cost, benefit, schedule, and risk (CBSR) information in
      evaluating competing investments and deciding on which investments to fund (Stage 2); and

•     Implemented an investment management practice to continually assess proposed and
      ongoing projects as an integrated and competing set of investment options (Stage 3).

Addressing these issues, which are discussed in the remainder of the report, is crucial as the
Department continues to develop a mature investment management capability.



Finding 1 – The Department Has Limited Processes to Ensure Investments
           are Consistent with its Target Architecture


The Department has limited investment management processes in place to ensure that investments
are consistent with the basic concepts of its targeted enterprise architecture (EA). The Office of
Management and Budget (OMB) guidelines7 require Federal agencies to develop and implement an
EA to provide a framework for evolving or maintaining existing and planned information
technology, and for evaluating investments in terms of the entity’s progress toward the desired
operational and technological environment. An EA is a core element in stage two of GAO’s ITIM
maturity framework. The Department does not have a complete, functional EA to guide its
investment activities, which precludes the Department from achieving a stage three maturity level.

As we reported, in September 2002, the Department has not completed a target EA.8 The
Department provided corrective action plans addressing each of the recommendations in the report
with 9/30/03 as its planned completion date for the target architecture and 6/30/04 as its planned
date for using the architecture in investment management decisions.

Without a completed target architecture or an explicitly defined process to use the most current
architecture information available, the Department’s IT goals may not be explicitly clear to decision-
makers. As a result, the Department may not have the necessary information crucial to evaluating IT
investments and ensuring investments are consistent with the basic concept of its target architecture.


7
    Management of Federal Information Resources, OMB Circular A-130 (November 30, 2000).
8
    Audit of Enterprise Architecture, Final Audit Report, dated September 30, 2002 (ED-OIG/A07-C0001).

ED-OIG/AO7-C0033                                                                                         Page 5
In our review of 47 business cases9 presented to the IRB, we found that none of the business cases
included specific information related to the proposals compatibility with the target EA. Each of the
investment proposals included a score for EA compatibility, but there was no clear information on
what was used to determine the score. According to the IT Investment Management Team Leader,
the Department’s investment process uses the IT Initiative Line of Business Alignment model to
identify and note potential redundancies. He stated that they scored IT projects compliance by
evaluating the mission alignment of the project to the Department's strategic plan goals and
objectives. In addition, they looked at the projects consistency with the Department’s product
support plan as a means to gauge compliance with the Department’s technical architecture.

The Department’s Technology Review Board reviews new IT proposals for technical merit; the
Configuration Review Board reviews on-going IT projects; and beginning in May 2003, the
Department’s Enterprise Architecture Working Group (EAWG) analyzes all business cases before
they are presented to the IRB for funding decisions (i.e., during the select phase of the investment).
The EAWG developed five basic questions, the answers to which should determine the compatibility
with the Department’s EA. Those questions relate to whether or not the IT proposal supports the
implementation of the Government Paperwork Elimination Act and has been reviewed by the
Technology Review Board; related interoperability, security, and scalability issues; the tier of the
process within the architecture and related security, privacy, and risk assessments; determining the
data source for the application; and the applications dependency on communication with other
systems. The questions do not specifically address the target architecture. However, having the type
of information provided through the EAWG’s review should be valuable to the IRB in evaluating
competing investment initiatives and making approval and funding decisions. The EAWG is
currently in the process of developing a method for communicating the results of its review of the IT
initiatives to the IRB.

As indicated, the Department has several groups reviewing the technology layer of IT proposals and
investments. However, we found no evidence of reviews for the data layer of the architecture. In
addition, the Department has not formalized its EA review process for IT investments in written
procedures. Without a formalized review process for EA compliance it is not clear where
responsibilities of one review group end and another begins, which could permit potential EA
compliance problems to slip through undetected. In addition, there is a definite disadvantage to not
having a completed, functional EA to use in making investment decisions, however, the EAWG
should be in the best position within the Department to evaluate an initiative’s compliance with the
EA. We have reviewed the EAWG’s methodology for reviewing the initiatives, as provided in the



9
  We reviewed the entire universe of fiscal years 2003 and 2004 business cases presented to the IRB for funding
(i.e., the select phase of the investment).

ED-OIG/AO7-C0033                                                                                           Page 6
five investment questions, and believe that the EAWG review should add value to the Department’s
investment review process.

Recommendations

We recommend that the Department CIO

1.1    Formalize the Department’s review process for IT investment compliance with its EA
       through written procedures delineating review responsibilities between groups.

We also recommend that the EAWG

1.2    Provide a high-level summary of whether the new initiative is supported by the current
       architecture or whether the architecture or the initiative need to be changed in order to assist
       the IRB in its evaluation of competing investment initiatives; and

1.3    As the information becomes available on the Department’s target architecture, incorporate it
       into the review of EA compliance.



Finding 2 – The Department Has Not Implemented Necessary Processes to
           Ensure Project-level Control and Selection


According to GAO10, the first step toward establishing effective investment management is
putting in place a foundation of effective project-level control and selection processes. These
processes will allow the Department to identify variances in project costs, schedule, and
performance expectations; to take corrective action, if appropriate; and to make informed,
project-specific selection decisions – a core element in stage two of GAO’s maturity framework.
Although the Department has made progress toward establishing such foundational processes,
key practices still need to be implemented to ensure that the IRB has the information necessary
to evaluate IT investment proposals and uses the information available to select between
competing proposals.

According to the ITIM framework, IT investment management based on industry best practices
establishes a systematic process for investment planning and management, including processes




ED-OIG/AO7-C0033                                                                             Page 7
for selecting, controlling, and evaluating investment options to maximize the value of the
investments while minimizing their risks. This process requires the development of life-cycle
cost, schedule, benefit, and risk estimates and the use of these estimates in comparing the relative
merits of competing investment options. Such a process allows decision-makers to select those
initiatives that best meet the agency’s strategic goals as detailed in a target enterprise
architecture and prioritize the selected initiatives for allocation of IT resources.

In accordance with IT investment management best practices outlined in GAO’s ITIM
framework, the Department has categorized investment proposals and established basic
characteristics (selection criteria) for evaluating new IT proposals. In addition, the Department
is using the established criteria in evaluating and selecting IT investments. However, the
Department does not always 1) ensure that the IT proposals have the most up to date and
complete life-cycle cost, benefit, schedule, and risk (CBSR) information available; and 2) use
that information in evaluating competing investments and deciding on which investments to fund
within and between the defined categories.

The Department did not always develop summary, high-level, life-cycle CBSR estimates for
each IT investment proposal presented to the IRB for approval. CBSR information provides the
basis for evaluating and selecting among competing investment options and provides a baseline
for measuring progress/performance. Such information is essential to decision-makers, faced
with time and resource constraints.

We reviewed all 47 business cases for IT investments presented to the Department’s IRB for
approval for fiscal years (FYs) 2003 and 2004. We found that 24 of the business cases did not
clearly present the relevant information related to the total life-cycle cost of the proposed
investment. While we generally found relevant cost information for the proposed investment
within the business case documentation provided to the IRB, it required an in-depth review of
the documentation and in some cases we could not trace all of the costs throughout the
documentation. For example, we found that in all 24 of these business cases it was not clear
what the total investment costs of the proposal was because the documentation provided
included different amounts, but no reconciliation of the differences.

In addition, we could not assure that the IT proposals we reviewed included complete life-cycle
cost information, i.e., all costs related to the initiative. Prior to the April 2002 investment review
reorganization, FSA and the Department had separate investment review processes and were not
assuring that all costs related to a project were included in the business case package. For


10
  Information Technology: DLA Needs to Strengthen Its Investment Management Capability (GAO-02-314), March
2002

ED-OIG/AO7-C0033                                                                                   Page 8
example, we found that related project costs funded under separate contracts, such as the costs of
life-cycle management planning, were not included as part of the total project costs. We also
found that modifications increasing contract costs were funded out of operational budgets and
not re-evaluated through the established investment review process. Although the Department’s
IT Investment Management Team Leader stated that, for at least two years, all program offices
have been asked to provide complete CBSR information, including the information on related
tasks or projects, complete life-cycle information is still a problem. In a briefing on the status of
EA development, CIO officials acknowledged that IT investment proposals do not include
complete life-cycle cost information, citing such examples as security and Government
Paperwork Elimination Act (GPEA) associated costs.


In addition, we found no indication within the business case documentation packages reviewed
that any CBSR data presented to the IRB was validated. The GAO ITIM framework suggests
that someone validate the costs, benefits, schedule, and risks (CBSR) documented in the business
case. Further, both the CIO Council guide: “Evaluating Information Technology Investments”
and the OMB “Capital Programming Guide” include requirements for validating project risks,
benefits, and costs. Although we found a Planning and Investment Review Working Group
(PIRWG) “Validation”, the validation appeared to be a validation to cost information presented
in other schedules throughout the documentation rather than a validation of the CBSR data.


To validate our findings from our review of IT investments presented to the Department’s IRB
for approval for FY 2003 and 2004, we reviewed the business cases submitted in the March 2003
IRB meeting. We found similar issues relating to the lack of clear cost presentation and
validation of the CBSR data. However, we also noted that the information provided to the IRB
and the process is improving after each meeting.

The GAO ITIM framework states that categorization of projects is a best practice and leads to
better focus on what an entity needs. Also, comparing proposed initiatives across these
categories, as well as to those projects that have already been funded, is a critical process. The
Department categorizes its IT initiatives into the following.

       Business Process Support Systems
       Program Delivery Systems
       IT Infrastructure
       IT Services
       General Office Automation




ED-OIG/AO7-C0033                                                                              Page 9
The Department does not have defined processes or guidance for comparing IT initiatives across
the defined investment categories.

According to GAO’s ITIM framework, the investment management process should ensure that
the IRB collectively analyzes and compares all investments and proposals to select those that
best fit with the strategic business direction, needs, and priorities of the organization. The
Department has not instituted a process to ensure that IT investment proposals include complete,
summary level, life-cycle cost information; nor that the IRB analyzes and compares all
investments and proposals as a whole package/project within its defined categories of
investments and between those categories. Therefore, the IRB may be making investment
decisions without considering the entire cost of a project or without evaluating competing
projects in other categories of investment. The IRB also may be making decisions inconsistent
with the Department’s IT goals.

Recommendations

Establishing foundational processes for project-level control and selection processes is necessary
to develop a mature investment management capability. We recommend that the Department
CIO ensure that

2.1    IT investment proposals include summary, high-level, life-cycle CBSR estimates.

2.2    IT investment proposals include total life-cycle cost estimates, including security, GPEA,
       and all other associated costs.

2.3    CBSR data provided in each IT investment proposal is validated.

2.4    Defined processes or guidance for comparing IT initiatives across the defined investment
       categories are developed and implemented.




ED-OIG/AO7-C0033                                                                          Page 10
Finding 3 – The Department Lacks an Investment Management Practice to
           Continually Assess Proposed and Ongoing Projects



According to GAO, 11 the second major step toward effective investment management is to
continually assess proposed and ongoing projects as an integrated and competing set of
investment options. This portfolio management approach would enable an organization to
consider the relative costs, benefits, and risks of new and previously funded investments and
thereby identify the mix that best meets its mission, strategies, and goals. The Department has
not implemented processes associated with managing investments as a complete portfolio.12
Specifically, the Department has not implemented an investment management practice to
continually assess proposed and ongoing projects as an integrated and competing set of
investment options – a core element in stage three of GAO’s maturity framework. As a result,
the Department’s IRB may not be able to adequately assess the relative merits of investment
proposals and make trade-offs among competing options.

According to the ITIM framework, the IRB should be responsible for monitoring each
investment’s progress to ensure that each IT investment decision achieves its CBSR
expectations. These investment (and portfolio) expectations are the baseline for periodic
performance reviews that examine the costs incurred, the benefits attained, the current schedule,
and the risks mitigated, eliminated, or accepted to date. We found, in a couple of the most recent
submissions to the IRB (March 2003), that the Department had begun to track investments to the
initial cost and schedule milestones. However, where differences were noted, we found little
evidence of corrective action required or taken. In addition, although the Department requests
updated CBSR information to review the status of prior IRB approved projects, it has not
implemented a process or procedure to use the updated information to compare both proposed
and ongoing IT investments in order to determine priorities and to make decisions about what
projects to fund based on their relative costs, benefits, schedule, and risks.

Without processes in place to obtain and use updated CBSR information to compare both
proposed and ongoing investments, the Department has limited investment control capabilities.
As such, the Department is unable to assess and make trade-offs about the relative merits of
spending funds to develop new systems, enhance current systems, or continue operating and

11
   Information Technology: INS Needs to Strengthen Its Investment Management Capability (GAO-01-146),
December 2002.
12
   Meaning an integrated, enterprise-wide collection of investments.

ED-OIG/AO7-C0033                                                                                   Page 11
maintaining existing systems, which could result in investment decisions inconsistent with the
Department’s goals.

Recommendations

Establishing processes for continually assessing proposed and ongoing projects is necessary to
develop a mature investment management capability. We recommend that the Department CIO

3.1    Ensure that the status of prior IRB approved projects are tracked and compared to initial
       baseline performance measures, and corrective action taken, where appropriate; and

3.2    Develop a process or implement an investment management practice to continually
       assess proposed and ongoing projects as an integrated and competing set of investment
       options.



The Department’s Comments

The Department generally concurred with our findings and recommendations and stated that
improvements had already been made and incorporated in its most current IT Investment
Management (ITIM) process. In addition, the Department’s response indicated that it had
already implemented many of the audit’s recommendations, but acknowledged that there was
still an opportunity for improvement by ensuring the practices are consistently applied. The
Department’s full response is attached to this report.




ED-OIG/AO7-C0033                                                                         Page 12
             Audit of Capital Planning and Investment Management

                                               Background


Each year the Department invests hundreds of millions of dollars on IT systems and activities.
According to the Department’s FY 2004 Exhibit 53 (budget documents), in FY 2002, it obligated
about $383.4 million on its total IT investment portfolio. In FY 2003, the Department expects to
obligate about $400 million on its total IT investment portfolio. In FY 2004, the Department
plans to spend about $417.3 million on its total IT investment portfolio.

In September 2002, we reported that the Department did not have an enterprise architecture (or
agency-wide blueprint) to guide the development of its new and the evolution of its existing
information systems.13 An enterprise architecture is a Clinger-Cohen Act requirement and a
practice of successful public and private sector organizations. Our report recognized the
Department’s progress in developing an enterprise architecture, indicating that the Department
had completed its current architecture and was beginning to develop its target architecture. Until
the Department has such an architecture, it will not be able to ensure that the hundreds of
millions of dollars it spends each year on new and existing information systems will optimally
support mission needs. We recommended that the Department complete the development of its
enterprise architecture, including the target architecture and a plan for moving from the current
to the target architecture.

The Clinger-Cohen Act was enacted to address longstanding problems related to federal IT
management. Among other things, it requires agency heads to implement a process for
maximizing the value and assessing and managing the risks of its acquisitions. A key goal of the
Clinger-Cohen Act is that agencies have processes and information in place to help ensure that
IT projects are being implemented at acceptable costs, within reasonable and expected time
frames, and are contributing to tangible, observable, improvements in mission performance.

In April 2002, the Department reorganized its investment review process and established a single
Department-level Investment Review Board (IRB) consistent with GAO’s guidance14. The
Department has slowly implement its reorganized investment review process. As of the date of
our review, the IRB had met 3 times – July 2002, December 2002, and March 2003.



13
     Audit of Enterprise Architecture, Final Audit Report, dated September 30, 2002 (ED-OIG/A07-C0001).
14
     Prior to April 2002, the Department and FSA had separate investment review processes.

ED-OIG/AO7-C0033                                                                                          Page 13
        Audit of Capital Planning and Investment Management


                       Objective, Scope, and Methodology


The objective of our review was to assess the status of the Department’s compliance with the
Clinger-Cohen Act requirements for capital planning and investment management. Specifically,
we determined whether Department’s investment review process ensured that 1) information
technology (IT) investment decisions were consistent with the enterprise architecture, currently
under development; 2) costs and benefits of each investment were fully considered in
determining which projects to fund; and 3) costs and benefits of all IT investments were
adequately tracked and considered in determining the mix of projects funded for the
Department’s overall investment portfolio.

To accomplish our objective, we reviewed applicable Department policies and procedures, as
well as laws, regulations, and agency guidelines addressing capital planning and investment
management. We obtained and reviewed the documentation of the Department’s charter for its
Investment Review Board (IRB). We obtained background budget information on the amount
the Department obligates and expects to spend on IT investments for FYs 2002 through 2004.
We interviewed personnel from the Department’s and FSA’s CIO offices.

We reviewed prior OIG audit reports, along with GAO reports, applicable to systems and capital
planning and investment management issues. We evaluated the Department’s efforts to date
using GAO’s “Information Technology Investment Management” (ITIM) framework. We
limited this evaluation to the Department’s progress in developing mature investment
management processes – Stages 2 and 3 of GAO’s ITIM maturity framework. We also limited
the evaluation to the scope of our review, which did not include all critical processes and
associated steps within Stages 2 and 3. We began with the 2001 IT Capital Planning &
Investment Management Process Assessment Results performed by Booz-Allen and Hamilton,
Inc., dated January 16, 2001, updating that assessment with any noted progress made based on
our review of documentation, discussions with Department personnel, and review of business
cases and PIRWG summaries (see Appendix I). We did not perform a complete Capability
Maturity Model review of the Department’s investment management processes.

We reviewed all 47 business cases presented to the Department’s IRB for FYs 2003 and 2004.
We limited our review to the most recent fiscal years because the Department reorganized its
investment review process in April 2002 and we had information related to business cases

ED-OIG/AO7-C0033                                                                        Page 14
approved under the prior process from our previous work in a related area.15 We did not perform
a reliability assessment because we did not use computerized data to meet our assignment
objectives.

We conducted work at the Department’s and FSA’s CIO offices in Washington, D.C. and our
OIG office in Kansas City, MO, during the period October 2002 to June 2003. We held an exit
conference with Department and FSA officials on June 26, 2003. Our audit was performed in
accordance with generally accepted government auditing standards appropriate to the scope of
the review.




15
 Audit of FSA Modernization Partner Agreement, Final Audit Report, dated November 20, 2002 (ED-OIG/A07-
B0008).

ED-OIG/AO7-C0033                                                                                 Page 15
        Audit of Capital Planning and Investment Management


                      Statement on Management Controls


As part of our review, we gained an understanding of the Department’s management control
structure applicable to the scope of this review. For purposes of this review, we assessed and
classified the significant management controls related to the Department’s information
technology efforts into the planning and assessment activities over the Department’s capital
planning and investment management. The assessment also included a determination of whether
the processes used by the Department provided a reasonable level of assurance of compliance
with the Clinger-Cohen Act.

Because of inherent limitations, and the limited nature of our review, a study and evaluation
made for the limited purpose described above would not necessarily disclose material
weaknesses in the management control structure. However, our assessment identified
weaknesses in the Department’s investment management processes as set out in the Audit Results
section of this report.




ED-OIG/AO7-C0033                                                                      Page 16
AUDIT OF CAPITAL PLANNING AND INVESTMENT MANAGEMENT.
ED-OIG/A07-C0033

Finding 1 – The Department has Limited Processes to Ensure Investments
are Consistent with its Target Architecture.

Recommendations:

1.1     That the Department CIO: Formalize the Department’s review process for
        IT investment compliance with its EA through written procedures
        delineating review responsibilities between groups.

1.2.     That the EAWG: Provide a high-level summary of whether the new
        initiative is supported by the current architecture or whether the
        architecture or the initiative needs to be changed in order to assist the IRB
        in its evaluation of competing investment initiatives; and

1.3     As the information becomes available on the Department’s target
        architecture, incorporate it into the review of EA compliance.

Proposed Action Items:

1.1.1 Develop and use in the FY 2004 Select Phase, a set of written procedures
      that formalizes the Department’s review process for IT investment
      compliance with the Enterprise Architecture. The written procedures will
      delineate review responsibilities. Planned completion date: 3/31/2004

1.2.1 For the FY 2004 Select Phase the Enterprise Architecture Working Group
      will provide, for each new initiative, a high-level summary of how the
      initiative is supported by the current architecture and whether the
      architecture or the initiative needs to be changed in order to assist the IRB
      in its evaluation of competing investment initiatives. Planned completion
      date: 8/31/2004

1.3.1    As information becomes available on the Department’s target
        architecture, the Enterprise Architecture Working Group will use it in the
        review of significant investments. Planned completion date: 8/31/2004

Finding 2 – The Department has not implemented Necessary Processes to
Ensure Project-level Control and Selection.

Recommendations. That the CIO ensure that:

2.1 IT investment proposals include summary, high-level, life-cycle cost, benefit,
    schedule and risk (CBSR) estimates.


                                          1
2.2 IT investment proposals include total life-cycle estimates, including security,
    GPEA, and all other associated costs.

2.3 CBSR data provided in each IT investment proposal is validated.

2.4 Defined processes or guidance for comparing IT initiatives across the
    defined investment categories are developed and implemented.

Proposed Action Items:

2.1.1 In the FY 2004 Select Phase, each significant IT investment proposal will
     include summary, high-level, life-cycle cost, benefit, and risk estimates.
     Planned completion date: 8/31/2004

2.2.1 In the FY 2004 Select Phase, each significant IT investment proposal will
     include improved life-cycle estimates, including security and other
     appropriate costs. Planned completion date: 8/31/2004

2.3.1 In the FY 2004 Select Phase, the ITIM process will include a
     reasonableness review of the CBSR data for each significant IT investment
     proposal. Planned completion date: 8/31/2004

2.4.1 For the FY 2004 Select Phase, defined procedures for comparing IT
     initiatives across the defined investment categories will be developed and
     implemented. The defined investment categories are: Business Process
     Support Systems; Program Delivery Systems; IT Infrastructure; IT Services;
     General Office Automation. Planned completion date: 3/31/2004

Finding 3 – The Department Lacks an Investment Management Practice to
Continually Assess Proposed and Ongoing Projects

Recommendations. That the Department CIO:

3.1    Ensure that the status of prior IRB approved projects are tracked and
      compared to initial baseline performance measures, and corrective action
      taken, where appropriate; and

3.2 Develop a process or implement an investment management practice to
    continually assess proposed and ongoing projects as an integrated and
    competing set of investments.




                                         2
Proposed Action Items:

3.1.1 Beginning with the FY 2004 Select Phase, all of the IRB approved projects
     will be tracked and compared to initial or updated baseline performance
     measures. Corrective actions will be directed by the IRB as appropriate.
     Planned completion date: 8/31/2004


3.1.2 Improve the investment management practice of continually assessing
     proposed and ongoing initiatives as an integrated and competing set of
     investment options in coordination with Action Item 3.1.1. Planned
     completion date: 8/31/2004




                                       3
